Audit Report




OIG-12-055
SAFETY AND SOUNDNESS: In-Depth Review of the First
National Bank of Davis, Davis, Oklahoma
June 7, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

OCC’s Supervision of the First National Bank of Davis ..........................................               3
  OCC Did Not Timely Identify the Extensions of Credit
     That Contributed to FNB Davis’ Failure ......................................................              4
  OCC’s Supervisory Response to a 2009 Federal Law Enforcement Agency
     Investigation of FNB Davis Was Insufficient ...............................................               6
  OCC Did Not Confirm FNB Davis Had Addressed Prior MRAs ............................                          8
  OCC’s Use of Prompt Corrective Action .........................................................              9

Recommendations ............................................................................................ 10

Appendices

    Appendix    1:      Objectives, Scope, and Methodology ......................................              12
    Appendix    2:      Background..........................................................................   14
    Appendix    3:      Management Response .........................................................          16
    Appendix    4:      Major Contributors to This Report ...........................................          18
    Appendix    5:      Report Distribution ................................................................   19

Abbreviations

    EIC                 Examiner-in-Charge
    FDIC                Federal Deposit Insurance Corporation
    MRA                 matter requiring attention
    LEA                 law enforcement agency
    OCC                 Office of Comptroller of the Currency
    OIG                 Office of Inspector General
    PCA                 prompt corrective action
    ROE                 report of examination




                        In-Depth Review of the First National Bank of Davis (OIG-12-055)                  Page i
         This Page Intentionally Left Blank




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page ii
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                       June 7, 2012

                       Thomas J. Curry
                       Comptroller of the Currency

                       This report presents the results of our in-depth review of the
                       failure of the First National Bank of Davis (FNB Davis), of Davis,
                       Oklahoma, and the Office of the Comptroller of the Currency’s
                       (OCC) supervision of the institution. OCC closed FNB Davis and
                       appointed the Federal Deposit Insurance Corporation (FDIC) as
                       receiver on March 11, 2011. As of April 30, 2012, FDIC
                       estimated that the loss to the Deposit Insurance Fund 1 would be
                       $25.9 million.

                       Because the magnitude of the loss estimate was less than the
                       threshold requiring a material loss review pursuant to
                       section 38(k) of the Federal Deposit Insurance Act, we
                       conducted a limited review of FNB Davis that focused on the
                       causes of the bank’s failure, and issued a report in June 2011. 2
                       As a result of our limited review, we determined that an in-
                       depth review of FNB Davis’ failure was warranted based on the
                       nature of the bank’s unsafe and unsound lending practices.

                       The objectives of our in-depth review were to assess OCC’s
                       supervision of the bank, including implementation of the prompt
                       corrective action (PCA) provisions of section 38; and make
                       recommendations for preventing any such loss in the future. To
                       accomplish these objectives, we reviewed the supervisory files
                       and interviewed current and former OCC officials. We also

1
  Definitions of certain terms, which are underlined where first used in this report, are found in
Safety and Soundness: Material Loss Review Glossary, OIG-11-065 (Apr. 11, 2011). That
document is available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.
2
  OIG, Safety and Soundness: Failed Bank Review of the First National Bank of Davis, OIG-11-074
(Jun. 8, 2011)


                       In-Depth Review of the First National Bank of Davis (OIG-12-055)              Page 1
                       interviewed personnel at FDIC's Division of Resolutions and
                       Receivership. Appendix 1 contains a more detailed description
                       of our review objectives, scope, and methodology. Appendix 2
                       contains background information on FNB Davis’ history and
                       OCC’s assessment fees and examination hours.

                       As discussed in our June 2011 report, OCC appointed FDIC as
                       receiver for FNB Davis on the following grounds: (1) the bank
                       experienced a substantial dissipation of assets or earnings due
                       to violation of statute, regulation, or unsafe or unsound
                       practice; (2) the bank’s violations of law, regulation, or unsafe
                       or unsound practices were likely to seriously prejudice the
                       interests of the institution's depositors or the Deposit Insurance
                       Fund; (3) the bank’s losses depleted all or substantially all of its
                       capital and there was no reasonable prospect for the bank to
                       become adequately capitalized; and (4) the bank was critically
                       undercapitalized. In this regard, the primary cause of FNB Davis’
                       failure was unsafe and unsound lending practices including
                       imprudent underwriting, violations of the bank’s legal lending
                       limit 3 regarding two related borrowers, and failing to identify
                       loan losses. Due to these unsafe or unsound practices and
                       violations of law, OCC identified $8.6 million in loan losses that
                       FNB Davis had failed to recognize. OCC noted that the majority
                       of these losses involved extensions of credit to two borrowers.
                       The combination of loans to these borrowers and their related
                       interests totaled almost $12 million, which clearly exceeded
                       FNB Davis' legal lending limit of $1.22 million as of
                       December 31, 2010.

                       In brief, our in-depth review of FNB Davis revealed that (1) OCC
                       did not timely identify the extensions of credit that contributed
                       to FNB Davis’ failure, (2) OCC’s supervisory response to a 2009
                       federal law enforcement agency (LEA) investigation of FNB
                       Davis was insufficient, and (3) OCC did not confirm that FNB
                       Davis had addressed supervisory directives stated in matters
                       requiring attention (MRA). We concluded that once the

3
  12 U.S.C. § 84 and 12 CFR § 32 limit the total dollar amount a bank can lend to a single
borrower. Congress imposed these limits to restrict the impact of a default by any individual
borrower on the overall safety and soundness of a bank. A bank computes the dollar amount of the
lending limit as a percentage of its capital and surplus. The general limit is 15 percent, but may be
higher in certain circumstances.


                       In-Depth Review of the First National Bank of Davis (OIG-12-055)            Page 2
                      supervision of FNB Davis was transferred to OCC’s Special
                      Supervision Division in February 2011, its supervisory actions
                      were appropriate.

                      We are recommending that OCC: (1) remind examiners of the
                      importance of following OCC’s guidance regarding performing
                      reconciliations of all reports submitted by management and
                      analyzing a bank’s new products to determine the effect on
                      credit risk; (2) establish formal guidance to address OCC’s
                      response to LEA investigations and requests for information
                      from LEAs, to include when examination procedures should be
                      expanded as well as notification to OCC Headquarters and OIG;
                      and (3) remind examiners of the importance of following OCC’s
                      guidance regarding verifying that the bank’s corrective actions
                      have been successful and timely.

                      In a written response, which is included in appendix 3, OCC
                      provided its planned corrective actions which we consider
                      responsive to our recommendations. However, OCC will need to
                      identify and record planned completion dates for taking these
                      actions in the Joint Audit Management Enterprise System
                      (JAMES), the Department of the Treasury’s audit
                      recommendation tracking system.

                      As of the date of this report, there are multiple open
                      investigations by various agencies, including the Treasury
                      Inspector General’s Office of Investigations, related to FNB
                      Davis. These investigations relate to questionable activities by
                      the bank and some of its affiliated corporate borrowers.


OCC’s Supervision of FNB Davis
                      Table 1 summarizes OCC’s examinations of FNB Davis and
                      enforcement actions taken from 2007 to 2011. 4 Generally,
                      MRAs represent the most significant items reported in reports of
                      examination (ROE).



4
 OCC conducted its examinations and performed offsite monitoring of FNB Davis in accordance
with the timeframes prescribed in OCC’s Comptroller’s Handbook.


                      In-Depth Review of the First National Bank of Davis (OIG-12-055)        Page 3
           Table 1. Summary of OCC’s FNB Davis Examinations and Enforcement Actions
                                                       Examination Results
                                                                        Number of
           Date started/ Assets          CAMELS         Number of       recommendations Enforcement
           Type of exam (millions)       rating         MRAs            or suggestions  actions
           1/8/2007
           Full-scope      $64.5          2/222222      None           2                None
           examination
           8/25/2008
           Full-scope      $70.1          2/222221      7              7                None
           examination
           1/4/2010a
           Full-scope      $75.6          2/232221      6              11               None
           Examination
           2/2/2011b                                                                    PCA directive
           Full-scope      $86.6          5/555552      N/A            N/A              issued
           Examination                                                                  3/2/2011
           a
             OCC changed the bank’s full scope examination cycle from 18 months to 12 months.
           b
             The bank was closed before the examination was completed. OCC, however, notified
           the bank’s board of directors in writing of the change in CAMELS ratings and the bank’s
           critically undercapitalized prompt corrective action capital category on March 2, 2011. A
           final 2011 ROE was not issued.

           Source: OCC ROEs, consent orders, and PCA directives; FNB Davis call reports.

                       OCC Did Not Timely Identify the Extensions of Credit that
                       Contributed to FNB Davis’ Failure

                       FNB Davis failed because of a concentration of unpaid loans and
                       other extensions of credit to a number of affiliated corporate
                       borrowers. While OCC examiners did identify $2.4 million in
                       loans to the affiliated corporate borrowers, it did not identify
                       another $6.8 million in extensions of credit to the same
                       borrowers until the 2011 examination, when a new Examiner-in-
                       Charge (EIC) was assigned to the bank. The extensions of credit
                       were accounted for in the bank’s Cash Flow Manager (CFM)
                       program. 5


5
  According to OCC, bank management had represented that the CFM program as an accounts
receivable factoring program. In general, “factoring” is a financial practice whereby a commercial
entity sells its accounts receivable to a purchaser at a discount in exchange for immediate funds to
finance the seller's continued business. However, OCC concluded that the CFM accounts in
question were really extensions of credit to the affiliated borrowers rather than a factoring program
because FNB Davis failed to purchase the underlying accounts receivables or secure the rights to
collect on them.


                       In-Depth Review of the First National Bank of Davis (OIG-12-055)             Page 4
                        We identified bank and OCC documents that show as early as
                        2007, OCC examiners had knowledge of, but did not question
                        bank management about, the CFM program. Among these
                        documents were the bank’s general ledgers as of December 31,
                        2006 and 2009, which included individual line items titled
                        “CFM loans”; and a September 2008 OCC supervisory strategy
                        document. The supervisory strategy document specifically
                        stated that OCC needed to review the CFM program during the
                        next full scope examination.

                        OCC’s Handbook on Portfolio Management states examiners
                        should determine whether new products have been introduced
                        since the last examination, and analyze their potential effect on
                        credit risk. When we asked the EIC for the 2003 through 2010
                        examinations about the CFM program, he stated that he may
                        have been aware of the program but his lack of experience with
                        factoring programs may have prevented an adequate analysis of
                        the program and its risks. 6 We do not find this response
                        satisfactory as the necessary expertise should have been sought
                        to implement the supervisory strategy. The EIC assigned to the
                        bank’s 2011 examination identified the $6.8 million in
                        extensions of credit to the affiliated corporate borrowers by
                        comparing the bank’s electronic loan file 7 to its call report. As a
                        result of the 2011 examination, OCC required the bank to
                        recognize a total of $8.6 million in losses, putting the bank in a
                        negative capital position.

                        We were also told by the EIC for the 2003 through 2010
                        examinations that prior to the 2011 examination, OCC
                        examiners did not identify the CFM program extensions of credit
                        because the bank did not include them in the electronic loan
                        files provided to the examiners. OCC’s Handbook on the Review
                        of Regulatory Reports states that examiners must determine
                        that all reports submitted by management are accurate, and
                        agree to the bank’s general books. Until its 2011 examination,

6
  The examiner had been in charge of the FNB Davis examinations for 8 years. In November 2011,
OCC updated its Policy and Procedures Manual to establish a formal EIC rotational policy. The policy
states that employees may serve as EICs at the same bank for no longer than 5 consecutive years.
7
  During a typical safety and soundness examination, bank management provides OCC with an
electronic loan file listing all of the bank’s extensions of credit. OCC uses this electronic loan file to
select the sample of loans to be reviewed during the examination.


                        In-Depth Review of the First National Bank of Davis (OIG-12-055)               Page 5
                      OCC examiners did not reconcile FNB Davis’ electronic loan file
                      provided by bank management to either the bank’s general
                      ledger or call report to ensure the file was accurate and
                      complete. The findings by the 2011 examination EIC underscore
                      the importance of the Handbook requirement.

                      OCC’s Supervisory Response to a 2009 Federal Law
                      Enforcement Agency Investigation of FNB Davis Was
                      Insufficient

                      In October 2009, an LEA contacted OCC’s district counsel
                      regarding an investigation of one of FNB Davis’ borrowers. The
                      LEA had received an allegation that (1) FNB Davis extended
                      credits worth $5 million to a number of affiliated corporate
                      borrowers, (2) those credits were collateralized by fraudulent
                      invoices and could not be repaid, and (3) bank management
                      may have been aware that some of the invoices were
                      fraudulent. OCC’s district counsel provided the OCC field office
                      with written authorization to communicate with, and assist the
                      LEA with its investigation. 8

                      Despite knowledge of the investigation, the OCC field office did
                      not perform any additional loan review procedures during the
                      January 2010 examination to determine the validity of the
                      allegations. In addition, neither the OCC field office official nor
                      the EIC informed the examiner assigned to review the loans in
                      question, which totaled $5 million, that they were allegedly
                      collateralized by fraudulent invoices.

                      Lacking key information about the nature of the allegations, the
                      examiner only reviewed the same $2.4 million worth of loans to
                      the affiliated corporate borrowers that had been reviewed in the
                      prior examination. Those particular loans were collateralized by
                      equipment, as opposed to receivables (supported by invoices).
                      In the end, the examiner did not review the credits that were
                      the subject of the allegations. The examiner stated that he did
                      not review a copy of FNB Davis’ 2009 general ledger during the
                      2010 examination, but that if he had, the line item of CFM
                      loans in the amount of $6 million, at the time, would have

8
  Provisions for OCC making non-public information on banks available to government agencies upon
request are found in 12 CFR § 4.34 and § 4.37.


                      In-Depth Review of the First National Bank of Davis (OIG-12-055)        Page 6
prompted him to question bank management about the loans.
As discussed in the previous finding, if OCC examiners had
reconciled FNB Davis’ electronic loan file to either the bank’s
general ledger or call report prior to the 2011 examination, they
would have discovered the extensions of credit referenced in
the LEA’s investigation (which were the same credits accounted
for in the CFM Program).

In March 2010, after completing its examination, OCC’s field
office informed the LEA that it had reviewed the affiliated
corporate borrowers’ loans (the $2.4 million of loans that had
been reviewed before; not the extensions of credit that were
the subject of the allegations) and had downgraded some of the
loans to special mention or substandard.

The OCC field office informed OCC headquarters of the LEA’s
investigation only after the bank was transferred to OCC’s
Special Supervision Division in February 2011. In an email to
OCC headquarters dated September 26, 2011, the field office
stated that (1) the CFM program credits to the affiliated
corporate borrowers in the amount of $6.8 million did not
appear in the electronic loan file during the 2010 examination;
(2) the field office reviewed loans to the affiliated corporate
borrowers that did appear in the electronic loan file, and
believed that those were the credits the LEA was referring to;
and (3) the field office concluded that the receivables pledged
to the credits reviewed during the 2010 examination appeared
to be good receivables. However, as stated above, the examiner
reviewed the loans collateralized by equipment, not the
extensions of credits that were collateralized by
receivables/invoices and the subject of the LEA investigation.

OCC does not have guidelines or internal written protocols
specifically addressing contact between field office/examination
staff and LEAs. The assistant deputy controller responsible for
FNB Davis stated that although there are no specific procedures
for handling inquiries from LEAs, he believed the appropriate
officials in the field were made aware of the investigation in this
instance. He also stated that OCC headquarters was not
notified of the investigation prior to 2011 because the results of
the review performed in 2010 did not support the allegations.



In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 7
We believe that OCC should establish formal guidance to
address its response to investigations and requests for
information from LEAs. The guidance should address, for
example, when examination procedures should be expanded
based on information provided by LEAs and the conditions that
warrant notification of such matters to OCC Headquarters,
which we believe should be done in all cases. The guidance
should also consider the need to share with OIG any information
concerning possible obstruction of or fraud upon any OCC
programs or operations, including information about possible
criminal activity involving entities or persons subject to OCC
oversight.

OCC Did Not Confirm FNB Davis Had Addressed Prior MRAs

OCC’s Bank Supervision Handbook states that examiners should
verify that the bank’s corrective actions to address MRAs have
been successful and timely. This includes verifying that the
bank is executing the action plans and evaluating whether the
actions the bank has taken or plans to take adequately address
the deficiencies.

The MRA sections of the 2008 and 2010 ROEs stated that the
examinations revealed a number of deficiencies and system
weaknesses in FNB Davis’ retail credit lending. OCC issued an
MRA in 2008 requiring, among other things: (1) proper
classification and charge-offs of past due loans, (2) creation of
board-approved policies for loan extensions and retail credit
underwriting, and (3) creation of a retail credit monitoring report
for board meetings. OCC’s work papers document the site visits
and discussions with bank management to follow up on this
MRA; however, there is no evidence that examiners reviewed
bank documents to verify management’s assertions that the
issues were being corrected. In October 2009, based on
discussions with management, OCC concluded that
management appeared to have corrected the 2008 MRA.
However, a similar MRA was issued as a result of the 2010
examination and in December 2010, again based on discussions
with bank management, the examiners concluded that MRA had
been corrected as well.




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 8
When asked about the ongoing monitoring of the bank’s
progress to address the MRAs, the EIC said that during site
visits and phone conversations, he felt comfortable with
management’s response and their efforts to address the MRAs.
We believe bank management representations alone are
insufficient evidence to verify compliance with OCC’s MRAs,
especially in light of the fact that MRAs that had supposedly
been corrected, were identified again as issues in the following
examination. Examiners should have reviewed copies of relevant
bank documentation to corroborate management’s assertions
and should have documented that review as provided in OCC’s
Handbook.

OCC’s Use of Prompt Corrective Action

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take
certain actions when an institution’s capital drops below certain
levels. PCA also gives regulators flexibility to supervise
institutions based on criteria other than capital levels.

Prior to 2011, FNB Davis’ call reports indicated that the bank
was well capitalized for PCA purposes. As mentioned above,
during the examination that started February 2, 2011, OCC
examiners required the bank to recognize a total of $8.6 million
in loan losses. Supervision of FNB Davis was transferred to
OCC’s Special Supervision Division on February 25, 2011. On
March 2, 2011, OCC notified FNB Davis that its deficit equity
capital position caused the bank to become critically
undercapitalized for PCA purposes. The examiners calculated
that, as of December 31, 2010, Davis' ratio of Tier I capital to
adjusted total assets was negative 0.57 percent, below the 2
percent threshold ratio for the critically undercapitalized
category. On March 11, 2011, OCC closed FNB Davis and
appointed FDIC as receiver. We concluded that once the
supervision of FNB Davis was transferred to OCC’s Special
Supervision Division, its supervisory actions under PCA were
appropriate.




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 9
Recommendations
           We recommend that the Comptroller of the Currency:

           1. Remind examiners of the importance of following OCC’s
              guidance regarding (1) performing reconciliations of all
              reports submitted by management to ensure that the reports
              are accurate and agree to the bank’s general books, and
              (2) analyzing a bank’s new products to determine the effect
              on credit risk.

               Management Response

               Examiners will be reminded to follow established OCC
               guidance regarding performing reconciliations of reports
               received from bank management during examinations. This
               will provide reasonable assurance that critical assets are
               captured. Further, examiners will be reminded to evaluate
               the effect of new products on key risks, including credit risk.

               OIG Comment

               OCC’s planned action is responsive to our recommendation.
               OCC will need to record its estimated completion date in
               JAMES.

           2. Establish formal guidance to address OCC’s response to
              investigations and requests for information from LEAs. The
              guidance should address, for example, when examination
              procedures should be expanded based on information
              provided by LEAs as well as notification to OCC
              Headquarters and OIG.

               Management Response

               OCC will formalize guidance that addresses interactions with
               law enforcement agencies and develop communication
               protocols for notifications to OCC Headquarters and OIG.




           In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 10
    OIG Comment

    OCC’s planned action is responsive to our recommendation.
    OCC will need to record its estimated completion date in
    JAMES.

3. Remind examiners of the importance of following OCC’s
   guidance regarding verifying that the bank’s corrective
   actions have been successful and timely. This includes
   verifying that the bank is executing the action plans and
   evaluating whether the actions the bank has taken or plans
   to take adequately address the deficiencies noted.

    Management Response

    OCC will reinforce the expectation for its examiners to
    comply with all aspects of the MRA Reference Guide that
    was distributed on July 1, 2010.

    OIG Comment

    OCC’s planned action is responsive to our recommendation.
    OCC will need to record its estimated completion date in
    JAMES.

                            * * * * *

We appreciate the courtesies and cooperation provided to our
staff during the audit. If you wish to discuss the report, you
may contact me at (202) 927-0384 or Theresa Cameron, Audit
Manager, at (202) 927-1011. Major contributors to this report
are listed in appendix 4.



Jeffrey Dye /s/
Audit Director




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 11
Appendix 1
Objectives, Scope, and Methodology




We performed an in-depth review of the failure of the First
National Bank of Davis (FNB Davis) of Davis, Oklahoma. The
objectives of our in-depth review were to assess OCC’s
supervision of the bank, including implementation of the prompt
corrective action (PCA) provisions of section 38; and make
recommendations for preventing any such loss in the future.

We conducted this in-depth review of FNB Davis in response to
Section 38(k) of the Federal Deposit Insurance Act. This section
provides that if the inspector general for the appropriate federal
banking agency determines an in-depth review of a nonmaterial
loss to the Deposit Insurance Fund is warranted, the inspector
general is to prepare a report to the agency that

    •   reviews the agency’s supervision of the institution,
        including its implementation of the PCA provisions of
        Section 38; and

    •   makes recommendations for preventing any such loss in
        the future.

To accomplish our review objectives, we reviewed the
supervisory files and interviewed current and former OCC
officials. We also interviewed personnel at FDIC's Division of
Resolutions and Receivership. We conducted our fieldwork from
May 2011 to January 2012. Specifically, we performed the
following work:

    •   We determined that the period covered by our review
        would be from 2006 through the bank’s failure on
        March 11, 2011. This period included four full scope
        safety and soundness examinations.

    •   We reviewed OCC’s supervisory files and records for FNB
        Davis from the 2006 through 2011 examination cycles.
        We analyzed examination reports, supporting work
        papers, and related supervisory and enforcement
        correspondence. We performed these analyses to gain an
        understanding of the problems identified, the approach
        and methodology OCC used to assess the institution’s
        condition, and the regulatory action used by OCC to
        compel the institution’s management to address deficient


In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 12
Appendix 1
Objectives, Scope, and Methodology




        conditions. We did not conduct an independent or
        detailed review of the external auditor’s work or
        associated work papers.

    •   We interviewed and discussed various aspects of the
        supervision of the institution with OCC officials and
        current and former examiners to obtain their perspectives
        on the institution’s condition and the scope of the
        examinations. We also interviewed FDIC officials who
        were responsible for monitoring FNB Davis prior to and
        after receivership.

    •   We assessed OCC’s actions based on its internal
        guidance and the requirements of the Federal Deposit
        Insurance Act, as amended by 12 U.S.C. § 1820(d).

We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the review to obtain
sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit
objectives.




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 13
Appendix 2
Background




First National Bank of Davis History

The First National Bank of Davis (FNB Davis) of Davis,
Oklahoma, was established in 1895. FNB Davis provided
various loan and deposit products to commercial, agricultural,
and consumer customers in Davis, Oklahoma and three
surrounding counties. FNB Davis had one office located in
Davis, Oklahoma, and was wholly owned by its holding
company, Davis Bancorporation (Davis Bancorp), Inc. Davis
Bancorp was formed in 1996. FNB Davis’s assets were
approximately $90.2 million as of December 31, 2010.

From 1992 to 2009, FNB Davis’s composite CAMELS ratings
along with its asset quality, management, earnings, and liquidity
component ratings were 1 or 2. Prior to recognizing losses from
loans to affiliated corporate borrowers in 2011, FNB Davis’s call
report as of December 31, 2010 indicated that the bank was
well capitalized for Prompt Corrective Action purposes.

During the 2011 safety and soundness examination, OCC
discovered significant unrecognized losses in the amount of
$8.6 million. These unrecognized losses exceeded the bank’s
capital and allowance for loan and lease losses. On March 2,
2011, FNB Davis was deemed both undercapitalized and
critically undercapitalized for PCA purposes. On March 11,
2011, OCC closed FNB Davis and appointed the FDIC as
receiver.

OCC Assessments Paid by FNB Davis and OCC Examination
Hours

OCC funds its operations in part through semiannual
assessments on national banks. OCC publishes annual fee
schedules, which include general assessments to be paid by
each institution based on the institution’s total assets. If the
institution is a problem bank (i.e., it has a CAMELS composite
rating of 3, 4, or 5), OCC also applies a surcharge to the
institution’s assessment to cover additional supervisory costs.
These surcharges are calculated by multiplying the sum of the
general assessment by 50 percent for 3-rated institutions or by
100 percent for 4- and 5-rated institutions.


In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 14
Appendix 2
Background




Table 2 shows the assessments that FNB Davis paid to OCC
from 2006 through 2011.

Table 2: Assessments Paid by FNB Davis to OCC, 2006–2011
Billing Period             Exam Rating        Amount Paid
1/1/2006–6/30/2006             2/222222                   $17,367
7/1/2006–12/31/2006            2/222222                    17,106
1/1/2007–6/30/2007             2/222222                    17,371
7/1/2007–12/31/2007            2/222222                    17,961
1/1/2008–6/30/2008             2/222222                    18,630
7/1/2008–12/31/2008            2/222222                    18,025
1/1/2009–6/30/2009             2/222221                    18,792
7/1/2009–12/31/2009            2/222221                    19,662
1/1/2010–6/30/2010             2/222221                    19,459
7/1/2010–12/31/2010            2/232221                    21,254
1/1/2011–6/30/2011             5/555552                    22,389
Source: OCC

Number of OCC Staff Hours Spent Examining FNB Davis

Table 3 shows the number of OCC staff hours spent examining
FNB Davis from 2006 to 2011.

Table 3: OCC Hours Spent Examining FNB
Davis, 2006-2011
Examination          Number of Examination
Start Date                          Hoursa
1/8/2007                                     701
8/25/2008                                    253
1/4/2010                                     374
2/2/2011                                     720
Source: OCC.
a
  Hours are totaled for safety and soundness
examinations, information technology examinations,
and compliance examinations. They do not include
time spent performing off-site monitoring.




In-Depth Review of the First National Bank of Davis (OIG-12-055)    Page 15
Appendix 3
Management Response




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 16
Appendix 3
Management Response




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 17
Appendix 4
Major Contributors to This Report




Theresa Cameron, Audit Manager
Christen Janell Stevenson, Auditor-in-Charge
Brandon Crowder, Auditor
April Ellison, Auditor
Maria McLean, Auditor
Kevin Guishard, Referencer




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 18
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




In-Depth Review of the First National Bank of Davis (OIG-12-055)   Page 19
